                                                                 Issue Date
                                                                      July 26, 2007
                                                                 Audit Report Number
                                                                     2007-PH-1010




TO:        Brian D. Montgomery, Assistant Secretary for Housing – Federal Housing
            Commissioner, H


FROM:


SUBJECT:   Countrywide Home Loans, Plymouth Meeting, Pennsylvania, Generally
            Complied with HUD Requirements in Originating FHA-Insured Single-
            Family Loans


                                  HIGHLIGHTS

 What We Audited and Why

           We audited the Plymouth Meeting, Pennsylvania, branch of Countrywide Home
           Loans (branch office), a nonsupervised direct endorsement lender approved to
           originate Federal Housing Administration (FHA) single-family mortgage loans.
           We selected the branch office because its default rate was above the state’s
           default rate. Our objective was to determine whether the branch office complied
           with U.S. Department of Housing and Urban Development (HUD) regulations,
           procedures, and instructions in the origination and quality control review of FHA
           loans.

 What We Found

           The branch office generally complied with HUD regulations, procedures, and
           instructions in the origination and quality control review of FHA-insured single-
                 family loans. However, two of 10 loans we selected for review1 were not originated
                 in accordance with HUD requirements. The branch office did not properly verify
                 the borrowers’ assets for the two loans originally valued at more than $254,000. The
                 deficiencies occurred because the branch office did not exercise due diligence in the
                 underwriting of the loans, causing an unnecessary increased risk to the FHA
                 insurance fund.

    What We Recommend

                 We recommend HUD’s assistant secretary for housing – federal housing
                 commissioner require Countrywide Home Loans to

                      •   Indemnify $256,534 2 for two loans, which it issued contrary to HUD’s
                          loan origination requirements; and

                      •   Develop internal procedures to more closely monitor its underwriting
                          process.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided a draft report to the branch office on June 20, 2007. We discussed
                 the report with the branch office during the audit and at an exit conference on
                 July 2, 2007. We requested a written response by July 12, 2007. The branch
                 office provided written comments to our draft report on July 16, 2007. The
                 complete text of the branch office’s response, along with our evaluation of that
                 response, can be found in appendix B of this report.




1
 Originally valued at more than $1.2 million.
2
 This amount is the unpaid principal balance $251,599 plus a partial claim of $4,935 paid. The projected loss to
HUD is $74,395, based on HUD’s insurance fund average loss rate of 29 percent.


                                                         2
                            TABLE OF CONTENTS


Background and Objectives                                                       4

Results of Audit
      Finding: The Branch Office Generally Complied with HUD Requirements but   5
      Did Not Properly Verify Borrowers’ Assets for Two Loans

Scope and Methodology                                                           7

Internal Controls                                                               8

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use            9
   B. Auditee Comments and OIG’s Evaluation                                     10
   C. Schedule of Case File Discrepancies                                       14
   D. Narrative Case Presentations                                              15




                                            3
                     BACKGROUND AND OBJECTIVES


The U.S. Department of Housing and Urban Development’s (HUD) strategic plan states that part
of its mission is to increase homeownership, support community development, and increase
access to affordable housing free from discrimination.

The National Housing Act, as amended, established the Federal Housing Administration (FHA),
an organizational unit within HUD. The FHA provides insurance for lenders against loss on
single-family home mortgages.

In 1983, HUD implemented the direct endorsement program, which authorized approved lenders
to underwrite loans without HUD’s prior review and approval. HUD can place them on credit
watch status or terminate their approval if their rate of defaults and claims exceeds the normal
rate for the area. Many sanctions are available for taking actions against lenders or others who
abuse the program.

Countrywide Home Loans is a direct endorsement lender for FHA loans. Countrywide Home
Loans’ corporate office is located in Calabasas, California. Countrywide Home Loans’
Plymouth Meeting, Pennsylvania, branch office issued 48 FHA loans between December 2004
and November 2006 that defaulted within the first two years. Of the 48 loans, valued at more
than $4.9 million, 38, valued at approximately $3.8 million, defaulted after 12 or fewer
payments. We reviewed 10 of the 38 loans valued at approximately $1.2 million.

Our objective was to determine whether Countrywide Home Loans’ Plymouth Meeting,
Pennsylvania, branch office complied with HUD regulations, procedures, and instructions in the
origination and quality control review of FHA loans.




                                               4
                                  RESULTS OF AUDIT


Finding 1: The Branch Office Generally Complied with HUD
Requirements but Did Not Properly Verify Borrowers’ Assets for Two
Loans
The branch office generally complied with HUD requirements in its origination and quality
control review of FHA loans; however, it did not verify borrowers’ assets in accordance with
HUD requirements for two of 10 loans reviewed, originally valued at more than $1.2 million.
The deficiencies occurred because the branch office did not exercise due diligence in the
underwriting of the two loans, causing an unnecessary increased risk to the FHA insurance fund.
Therefore, Countrywide Home Loans should indemnify $256,534 3 for the two defaulted loans.



    The Branch Office Did Not
    Properly Verify Borrowers’
    Funds to Close


               For one of the sample cases reviewed, the borrower’s earnest money exceeded 2
               percent of the sales price, and the source of funds was not adequately verified.
               The borrower did not adequately document the accumulation of the funds from a
               private savings club. In addition, the borrower’s bank accounts had unexplained
               large deposits. For another case, the borrowers’ bank accounts had unexplained
               large deposits, without which the borrower would have been unable to support the
               earnest money deposit.

               HUD requirements 4 state that if the amount of the earnest money deposit exceeds
               2 percent of the sales price or appears excessive based on the borrower’s history
               of accumulating savings, the lender must verify with documentation the deposit
               amount and the source of funds. HUD also requires 5 the lender to verify savings
               and checking accounts. A verification of deposit, along with the most recent bank
               statement, may be used to accomplish this. If there is a large increase in an
               account or the account was opened recently, the lender must obtain a credible
               explanation of the source of those funds. Further, HUD requirements 6 state that if
               a homebuyer claims that the cash to close an FHA-insured mortgage is from
               savings held with a private savings club, the borrower must be able to adequately
               document the accumulation of those assets with the club. While such clubs are

3
  See footnote 2.
4
  HUD Handbook 4155.1, REV-5, paragraph 2-10(A).
5
  HUD Handbook 4155.1, REV-5, paragraph 2-10(B).
6
  HUD Handbook 4155.1, REV-5, paragraph 2-10(R).


                                                   5
                      not supervised banking institutions, the clubs must–at a minimum–have account
                      ledgers, receipts from the club, verification from the club treasurer, and
                      identification of the club so that the lender can verify the information provided.
                      The underwriter must be able to determine that it was reasonable for the borrower
                      to have saved the money claimed and that there is no evidence that these funds
                      were borrowed with an expectation of repayment.

    Conclusion


                      The branch office generally complied with HUD regulations, procedures, and
                      instructions in the origination and quality control review of FHA loans. However,
                      it did not properly verify borrowers’ assets for two loans it originated. The
                      deficiencies occurred because the branch office did not exercise due diligence in
                      the underwriting of the loans, causing HUD to assume unnecessarily high risk
                      when it insured the loans. Therefore, Countrywide Home Loans should
                      indemnify $256,534 7 for the two defaulted loans (see appendixes C and D for
                      more detail).

    Recommendations



                      We recommend that HUD’s assistant secretary for housing – federal housing
                      commissioner require Countrywide Home Loans to

                      1A.    Indemnify $256,534 8 for two loans, which it issued contrary to HUD’s
                             loan origination requirements.

                      1B.    Develop internal procedures to more closely monitor its underwriting
                             process.




7
    See footnote 2.
8
    See footnote 2.


                                                       6
                        SCOPE AND METHODOLOGY


We targeted lenders with high default rates and selected Countrywide Home Loans’ Plymouth
Meeting, Pennsylvania, branch office (branch office) because its percentage of defaults by two
years was 3.75 percent compared with the Pennsylvania state average of 3.68 percent. We then
ran queries in HUD’s Neighborhood Watch system to identify the branch office’s number of
defaulted loans within the first two years and the number of payments made against those loans.
We found that the branch office issued 48 loans, valued at more than $4.9 million that defaulted
within the first two years. Of the 48 loans, 38, valued at approximately $3.8 million, defaulted
after 12 or fewer payments. We sampled 10 loans with four or fewer payments for our survey
review. The 10 loans were valued at approximately $1.2 million. To determine whether the
branch office complied with HUD regulations, procedures, and instructions in the origination and
quality control review of FHA loans, we performed the following:

   •   Reviewed applicable HUD handbooks and mortgagee letters;

   •   Reviewed case files for the 10 sample loans;

   •   Examined records and related documents of Countrywide Home Loans and its Plymouth
       Meeting, Pennsylvania, branch office; and

   •   Conducted interviews with officials and employees of Countrywide Home Loans and its
       Plymouth Meeting, Pennsylvania, branch office, as well as employees of the HUD
       Quality Assurance Division.

In addition, we relied in part on data maintained by HUD in the Neighborhood Watch system.
Although we did not perform a detailed assessment of the reliability of the data, we performed a
minimal level of testing and found the data adequately reliable for our purposes.

Our review period was from December 2004 through November 2006. When applicable, the
review period was expanded to include current data through March 2007.

We performed our review in accordance with generally accepted government auditing standards.




                                                7
                             INTERNAL CONTROLS


Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

                  •   Loan origination process – Policies and procedures that management has in
                      place to reasonably ensure that the loan origination process complies with
                      HUD program requirements.

                  •   Quality control plan – Policies and procedures that management has in place
                      to reasonably ensure implementation of HUD quality control requirements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              We did not identify any significant weaknesses.




                                                8
                                   APPENDIXES


Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation          Unsupported      Funds to be put
                         number               costs 1/      to better use 2/
                                1A                                 $74,395




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, implementation of our
     recommendation to indemnify loans that were not originated in accordance with HUD
     requirements will reduce the risk of loss to the FHA insurance fund. The above amount
     reflects HUD statistics, which show that the FHA, on average, loses 29 percent of the
     claim paid for each property (see appendix C).




                                             9
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         10
Comment 2

Comment 3



Comment 4




            11
Comment 5



Comment 6



Comment 7




Comment 8


Comment 9




            12
                      OIG Evaluation of Auditee Comments


Comment 1        We discussed our preliminary audit findings with Countrywide Home
                 Loans on May 8, 2007. Our preliminary findings included eight
                 deficiencies associated with six loan cases. Countrywide Home Loans
                 provided comments and additional support to address our preliminary
                 findings on June 4, 2007. Based on Countrywide Home Loans’ comments
                 and additional support, we eliminated six of the eight deficiencies reported
                 in our preliminary findings. As a result, this report only includes two
                 deficiencies associated with two loan cases. We provided a draft of this
                 report to Countrywide Home Loans on June 20, 2007, and discussed the
                 deficiencies reported with Countrywide Home Loans officials during an
                 exit conference on July 2, 2007. We requested a written response by
                 July 12, 2007. Countrywide Home Loans chose to address the
                 deficiencies discussed in this report by resubmitting its comments to our
                 preliminary findings. Thus, Comments 4 through 9 in Countrywide Home
                 Loans’ response are not applicable to the issues discussed in this report.

Comment 2        Countrywide Home Loans agreed with our assessment that the source of
                 funds was not properly documented for loan case number 441-7682281.

Comment 3        Our audit conclusions are based on sufficient, appropriate evidence.
                 Countrywide Home Loans did not provide sufficient, appropriate
                 documentation to show that the borrowers’ assets were properly supported
                 for loan case number 441-7737493.

Comments 4 - 9   As stated above, the deficiencies noted with these loan cases were
                 previously resolved, and were therefore not included in this report.




                                          13
Appendix C

              SCHEDULE OF CASE FILE DISCREPANCIES


                                         Unpaid
           Case           Mortgage      principal        Claim    Estimated      Unsupported
          number          amount         balance          paid      loss*           assets
        441-7682281        $95,993       $94,238         $4,935    $28,760            X
        441-7737493       $158,746      $157,361                   $45,635            X
           Totals         $254,739      $251,599         $4,935    $74,395            2

* This amount was calculated by taking 29 percent of the unpaid principal balance and claim paid for the
loans. On average, HUD loses 29 percent of the claim amount paid.




                                                    14
Appendix D

                     NARRATIVE CASE PRESENTATIONS


Case number: 441-7682281

Mortgage amount: $95,993

Date of loan closing: June 23, 2005

Status: Delinquent

Payments before first default reported: One

Unpaid principal balance: $94,238

Partial claim paid: $4,935

Summary:

               The branch office did not properly verify the borrower’s funds to close.

Pertinent Details:

               If the amount of the earnest money deposit exceeds 2 percent of the sales price or
               appears excessive based on the borrower’s history of accumulating savings, the
               lender must verify with documentation the deposit amount and the source of funds
               (HUD Handbook 4155.1, REV-5, paragraph 2-10(A)). A verification of deposit,
               along with the most recent bank statement, may be used to verify savings and
               checking accounts. If there is a large increase in an account or the account was
               opened recently, the lender must obtain a credible explanation of the source of
               those funds (HUD Handbook 4155.1, REV-5, paragraph 2-10(B)). In this case,
               the borrower’s earnest money exceeded 2 percent of the sales price, and the
               source of funds was not adequately verified. The borrower did not adequately
               document the accumulation of the funds from a private savings club. In addition,
               the borrower’s bank accounts had unexplained large deposits.




                                               15
Case number: 441-7737493

Mortgage amount: $158,746

Date of loan closing: January 10, 2006

Status: Special forbearance

Payments before first default reported: One

Unpaid principal balance: $157,361

Summary:

               The branch office did not properly verify the borrowers’ funds to close.

Pertinent Details:

               A verification of deposit, along with the most recent bank statement, may be used
               to verify savings and checking accounts. If there is a large increase in an account
               or the account was opened recently, the lender must obtain a credible explanation
               of the source of those funds (HUD Handbook 4155.1, REV-5, paragraph 2-
               10(B)). In this case, the borrower’s bank accounts had unexplained large
               deposits, without which the borrower would have been unable to support the
               earnest money deposit.




                                                16
